Lawrence S. Robbins

202.775.4501
lrobbins@robbinsrussell.com

August 13, 2021
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Ezaki Glico Kabushiki Kaisha, d/b/a Ezaki Glico Co., Ltd. & Ezaki Glico USA
Corp. v. Lotte International America Corp. & Lotte Confectionary Co. Ltd.,
No. 20-1817: Motion to Extend Time to Submit Brief in Opposition

Dear Mr. Harris:
I represent Respondents in the above-captioned case, which was docketed on June 29,
2021. Respondents previously received a 30-day extension of time in which to file a brief in
opposition, and the current deadline is August 30, 2021. Respondents respectfully request an
additional 30-day extension of time, to September 29, 2021, in which to file a brief in opposition.
My firm was only just retained as counsel to respond to the petition for certiorari in the
past week, and an additional 30-day extension will ensure that we have sufficient time to analyze
and respond to the arguments raised in the petition.
Counsel for Petitioners has consented to this request.
Sincerely,

Lawrence S. Robbins
cc:

Jessica L. Ellsworth, Counsel of Record for Petitioners

